Date____________________

®

(a) Monthly Statement. We will mail you a statement every month showing
your Previous Balance of purchases and cash advances, the current
transactions on your account, the remaining credit available under your
Credit Line, the New Balance of purchases and cash advances, the Total
New Balance, the finance charge due to date, and the Minimum
Payment Required.
(b) Minimum Payment. Every month you must pay at least the Minimum
Payment within 25 days of your statement closing date. By separate

6. Details About Your Monthly Payment

3. Liability for Unauthorized Use. You will not be liable to the credit union for
the unauthorized use of your card if the unauthorized use was not caused by
your gross negligence or fraud. In any case, your liability to
the credit union will not exceed $50.00 for other unauthorized use of
your card that occurs prior to the time when you give notice of possible
unauthorized use to the credit union at 78 Fox Street, Madawaska, ME
04756 at 207-728-7555 and you will not be liable for unauthorized use that
occurs after you notify the credit union of possible unauthorized use.
4. Credit Line. If we approve your application, we will establish a self
replenishing Line of Credit for you and notify you of its amount when we issue
the card. You agree not to let the account balance exceed this approved
Credit Line. Each payment you make on the account will restore your Credit
Line by the amount of the payment which is applied to principal. You may
request an increase in your Credit Line only by written application to us,
which must be approved by us. By giving you written notice we may reduce
your Credit Line from time to time or, with good cause, revoke your card and
terminate this Agreement. Good cause includes your failure to comply with
this Agreement or our adverse reevaluation of your creditworthiness. You may
also terminate this Agreement at any time, but termination by either of us
does not affect your obligation to pay the account balance. The cards remain
our property, and you must recover and surrender to us all cards upon our
request and upon termination of this Agreement.
5. Credit Information. You authorize us to investigate your credit standing when
opening, renewing, or reviewing your account, and you authorize us to
disclose information regarding your account to credit bureaus and other
creditors who inquire of us about your credit standing.

Business/Commercial Members Are Prohibited From Engaging In Unlawful Internet
Gambling – Unlawful Internet Gambling Enforcement Act Notice:
Restricted transactions as defined in Federal Reserve Regulation GG are
prohibited from being processed through this account or relationship.
Restricted transactions generally include, but are not limited to, those in
which credit, electronic fund transfers, checks, or drafts are knowingly
accepted by gambling businesses in connection with the participation by
others in illegal or unlawful Internet gambling.
2. Lost Card Notification. If you believe your credit card has been lost or
stolen, you will immediately call the Credit Union at 207-728-7555 or
800-804-7555 or after hours at 800-991-4961.

1. Responsibility. If we issue you a card, you agree to pay all debts and the
FINANCE CHARGE arising from the use of the card and the card account.
You are responsible for charges made by anyone else to whom you give the
card, and this responsibility continues until the card is recovered. You cannot
disclaim responsibility by notifying us, but we will close the account for new
transactions if you so request and return all cards. Your obligation to pay the
account balance continues even though an agreement, divorce decree, or
other court judgment to which we are not a party may direct you or one of the
other persons responsible to pay the account. If more than one person has
applied for a card or signed the application, paragraph 16 also applies to your
account. You agree that you will not use or allow anyone else to use your card
for any transaction that is illegal under applicable federal, state or local law.

In this Agreement, the words you and your mean each and all of those who
apply for the card, sign the application, or use the card. Card means a Visa
credit card and any duplicates and renewals we issue. Account means the
Visa Credit Card Line of Credit with us.
We, us, and ours mean this Credit Union.

NorState Federal Credit Union Visa Credit Card Agreement

Keep This Section

(continued on inside)

(b) Figuring the Finance Charge. The FINANCE CHARGE depends on your credit
score as follows: A, calculated at the periodic rate of 0.908% per month,
which is an Annual Percentage Rate of 10.9%; B, calculated at the periodic
rate of 0.991% per month, which is an Annual Percentage Rate of 11.9%;
C, calculated at the periodic rate of 1.075% per month, which is an Annual
Percentage Rate of 12.9%; and D, calculated at the periodic rate of
1.325% per month, which is an Annual Percentage Rate of 15.9%. We will
tell you in writing which rate applies to your Visa account upon approval of
your Application. If your account is current for a period of twelve (12)
consecutive months, you may request that we review your credit score. If
your credit score is improved, we will adjust your rate accordingly. If your
account is past due for more than sixty (60) days, your periodic rate will
increase to 1.5% per month which is an Annual Percentage Rate of 18%.
(i) Cash Advances. The finance charge on cash advances for a billing cycle
is computed by applying the monthly periodic rate to the average daily
balance, which is determined by dividing the sum of the daily balances
during the billing cycle by the number of days in the cycle. Each daily
balance is determined by adding to the previous balance for cash
advances (the outstanding cash advance balance of your account at the
beginning of the billing cycle) any new cash advances received and
subtracting any payments as received or credits as posted to your
account, but excluding any unpaid finance charges.
(ii) Purchases. The finance charge on purchases for a billing cycle is
computed by applying the monthly periodic rate to the average daily
balance of purchases, which is determined by dividing the sum of the
daily balances of purchases during the billing cycle by the number of
days in the cycle. Each daily balance of purchases is determined by
subtracting from the outstanding unpaid balance of purchases at the

(a) When Finance Charge Begins. A finance charge will be imposed on cash
advances from the date made or from the first day of the billing cycle in
which the cash advance is posted to your account, whichever is later, and
will continue to accrue until the date of payment. A finance charge will be
imposed on purchases only if you elect not to pay the entire new balance of
purchases shown on your monthly statement within 25 days from the
closing date of that statement. If you elect not to pay the entire new
balance of purchases shown on your monthly statement within that 25 day
period, a finance charge will be imposed on the unpaid average daily
balance of those purchases from the statement closing date (but not on
purchases posted during the current billing period) and will continue to
accrue until the closing date of the billing cycle preceding the date on
which the entire new balance of purchases is paid in full or until the date of
payment if more than 25 days from the closing date.

7. Finance Charges

agreement you may authorize us to charge the minimum payment
automatically to your share or share draft account with us. You may, of
course, pay more frequently, pay more than the minimum payment, or pay
the Total New Balance in full, and you will reduce the finance charge by
doing so. The Minimum Payment will be any portion of the Minimum
Payments shown on prior statements which remain unpaid plus either (a)
2% of your Total New Balance or $20.00, whichever is greater, or (b) your
Total New Balance if it is less than $20.00. In addition, at any time your
Total New Balance exceeds your Credit Line, you must immediately pay the
excess upon our demand.
(c) Payments made to your account will be applied in the following order: Fees and
Finance Charges; Previously Billed Purchases; Cash Advances; New
Purchases. We may accept checks marked “payment in full” or words of
similar effect without losing any of our rights to collect the full balance of
your account with us. Any amount received in excess of the minimum
monthly payment will be applied from the highest APR balance to the
lowest APR balance.
(d) All payments received will be posted by 5:00 P.M. Monday through Friday.
Payments received after 5:00 P.M. and on a Saturday, Sunday, or a holiday
will be post dated to the day payment was made.
(e) Minimum Payment Warning: Making only the minimum payment will
increase the amount of interest you pay and the time it takes to repay your
balance. For an estimate of the time it would take to repay your actual
balance making only minimum payments, call 800-804-7555.
®

Visa Credit Card

beginning of the billing cycle any payments as received and credits as
posted to your account, but excluding any unpaid finance charges.
8. Charges and Fees. The following other charges and fees will be added to your
account, as applicable:
(a) No Annual fee
(b) Walk-thru fee $30.00
(c) Over-the-credit-limit $10.00
(d) Late charge $20.00 (over 30 days)
(e) Copy of sales draft $10.00
(f) Card or PIN replacement $20.00
(g) Statement copy $3.00
(h) NSF fee $25.00
9. Default. You will be in default if you fail to make any Minimum Payment
within 25 days after your monthly statement closing date. You will also be in
default if your ability to repay is materially reduced by a change in your
employment, an increase in your obligations, bankruptcy or insolvency
proceedings involving you, your death, or your failure to abide by this
Agreement. We have the right to demand immediate payment of your full
account balance if you default, subject to our giving you any notice required by
law. The Credit Union will exercise the right to suspend all Credit Union
services until any such default has been resolved.
10. Using the card. To make a purchase or cash advance, there are two
alternative procedures to be followed. One is for you to present the card to a
participating Visa Credit Card plan merchant, to us, or to another financial
institution, and sign the sales or cash advance draft which is imprinted with
your card. The other is to complete the transaction by using your Personal
Identification Number (PIN) in conjunction with the card in an Automated
Teller Machine or other type of electronic terminal that provides access to the
Visa Credit Card system. The monthly statement will identify the merchant,
electronic terminal, or financial institution at which transactions were made,
but sales, cash advance, credit, or other slips cannot be returned with the
statement. You will retain the copy of such slips furnished at the time of the
transaction in order to verify the monthly statement. The Credit Union may
make a reasonable charge for photocopies of slips you request.
11. Returns and Adjustments. Merchants and others who honor the Card may
give credit for returns or adjustments, and they will do so by sending us a
credit slip which we will post to your account. If your credits and payments
exceed what you owe us, we will hold and apply this credit balance against
future purchases and cash advances, or, if it is $1 or more, refund it on your
written request or automatically after six months.
12. Foreign Transactions. Purchases and cash advances made in foreign
countries and foreign currencies will be billed to you in U.S. dollars.
A 1% International Transaction Fee will be assessed on all transactions where
the merchant country differs from the country of the card issuer.
The converted transaction amount will be shown separately from the
International Transaction Fee on your account statement. This fee will be
assessed on all international purchases, credit vouchers, and cash
disbursements.
Visa charges 0.8% for international transactions that do not involve
currency conversions.
The exchange rate for transactions in a foreign currency will be a rate selected
by Visa from the range of rates available in wholesale currency markets for the
applicable central processing date; this rate may vary from the rate Visa itself
receives, or the government mandated rate in effect for the applicable central
processing date plus the 1% International Transaction Fee.
Visa assessed surcharge/access fee for ATM or manual cash disbursement
transactions initiated outside of the U.S. region:* Visa assesses a cash
disbursement fee of U.S. $1.25 on international ATM transactions where a
surcharge fee has not been assessed. Visa assesses a cash disbursement fee of
0.15% + U.S. $0.50 on international ATM transactions where a surcharge fee
has been assessed. The 0.15% applies to the amount of cash disbursed and
not the surcharge/access fee. In other words, if $200 is disbursed and a $3.00
surcharge fee is applied, the 0.15% will be based on the $200.
*Except in Visa Europe Region.

ATM Cash Disbursement Transaction outside the U.S. region without an
Access/Surcharge Fee Assessed: If a surcharge fee is not assessed on a
qualified Visa and Plus ATM international and regional cash disbursement
transaction, the ATM cash disbursement fee will be assessed based on the
location of the acquirer as follows: Asian Pacific, 0.52% + US $0.65; Canada,
US $1.25; Central/Eastern Europe, Middle East, and Africa, 0.42% + US
$0.55; Europe, US $1.50; Latin America and the Caribbean, 0.52% + US
$0.65.

13. Plan Merchant Disputes. We are not responsible for the refusal of
any plan merchant or financial institution to honor your card. We are subject to
claims and defenses (other than tort claims) arising out of goods or services
you purchase with the card only if you have made a good faith attempt but
have been unable to obtain satisfaction from the plan merchant, and (a) your
purchase was made in response to an advertisement we sent or participated in
sending to you, or we own or operate the merchant; or (b) your purchase cost
more than $50 and was made from a plan merchant in your state or within 100
miles of your home. Any other disputes you must resolve directly with the plan
merchant.
14. Security Interest. You may be giving a security interest in a specific amount
of your share or share draft account(s) with the Credit Union by signing a
separate pledge of shares agreement. If you give a security interest to the
Credit Union, you must maintain the amount of the security given in your
account(s) at all times during which you have the right to use your card(s).
Other than this security interest, we will not assert any statutory right we may
have if you are in default to prevent withdrawal of your Credit Union shares in
other accounts or in the secured account(s), above the amount of the security
you give. The Credit Union also waives any other security interest it may have
for advances or purchases made under this agreement.
15. Effect of Agreement. This Agreement is the contract which applies to all
transactions on your account even though the sales, cash advance, credit, or
other slips you sign or receive may contain different terms. We may amend this
Agreement from time to time by sending you the advance written notice
required by law. Your use of the card thereafter will indicate your agreement to
the amendments. To the extent the law permits, and we indicate in our notice,
amendments will apply to your existing account balance as well as to future
transactions.
16. Joint Liability. Each person who has signed the application or applied for a
card will be individually and jointly responsible for paying all amounts owed
under this Agreement. This means that the Credit Union can require any one of
you individually to repay the entire amount owed under this Agreement. Each
of you authorizes the other(s) to make purchases or cash advances individually.
Any one of you may terminate the account and the termination will be effective
as to all of you.
17. We are required to send you a periodic statement at least 21 days before
the payment due date. If you do not receive your statement by the last day of
the month, please call 207-728-7555 for a copy of your most recent
statement.
18. We are required to give you a 45 day notice before any negative impact to
your Visa Credit Card Account.
19. Your Visa Credit Card due date will always be on the same date each
month.
20. Copy Received. You acknowledge receipt of a copy of this Agreement.
21. Signatures. By signing in the Signature area of the application form that
was attached to this Agreement when you received it, you agree to the terms of
this Agreement. You should detach this Agreement from the application and
retain it for your records.
YOUR BILLING RIGHTS : KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair
Credit Billing Act.
What To Do If You Find a Mistake on Your Statement
If you think there is an error on your statement, write to us at:
NorState Federal Credit Union
78 Fox Street, Madawaska, ME 04756
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe
what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you
want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing (or electronically). You may
call us, but if you do we are not required to investigate any potential errors and
you may have to pay the amount in question.
What Will Happen After We Receive Your Letter

When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as
delinquent on that amount.
• The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible
for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount
in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill is wrong, you must
write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are
questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when
the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50
of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with
your credit card, and you have tried in good faith to correct the problem with
the merchant, you may have the right not to pay the remaining amount due on
the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100
miles of your current mailing address, and the purchase price must have
been more than $50. (Note: Neither of these are necessary if your
purchase was based on an advertisement we mailed to you, or if we own
the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made
with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at:
NorState Federal Credit Union
78 Fox Street, Madawaska, ME 04756
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay, we
may report you as delinquent.

Madawaska · Eagle Lake · Ashland
Van Buren · Fort Kent · Presque Isle
1.800.804.7555
www.norstatefcu.org

NorState Federal Credit Union Visa Credit Card Application
A table that includes the APRs and other required cost disclosures for credit card applications is on the reverse side of this application.
Check the appropriate box below to indicate the type of credit for which you are applying.
❑ Individual credit. Complete Applicant section. Complete other section as follows:
Information about the party making payments only if you are relying on alimony, spousal
support, child support, or maintenance as a basis for repayment.

Credit limit requested: $

❑ Joint credit. Provide information about both of you
by completing Applicant and Co-Applicant sections.

Number of cards desired? ❑ 1 ❑ 2

APPLICANT Name

Date of Birth

Mother’s Maiden Name

Street

Social Security Number

Driver’s License Number and State

City, State, Zip

Home Phone

Number of Dependents

Gross Annual Income $

Net Monthly Pay $

Current Employer

Are you self employed? ❑ Yes ❑ No

Other Income $

Business Address

Type of Business

Title/Rank/Grade

Business Phone Number

Previous Employer

Ages

Supervisor’s Phone Number

Previous Business Address

Start Date

Title/Rank/Grade

Start Date/End Date

CO-APPLICANT Name

Date of Birth

Mother’s Maiden Name

Street

Social Security Number

Driver’s License Number and State

City, State, Zip

Home Phone

Number of Dependents

Gross Annual Income $

Net Monthly Pay $

Current Employer

Are you self employed? ❑ Yes ❑ No

Other Income $

Business Address

Type of Business

Title/Rank/Grade

Business Phone Number

Previous Employer

Supervisor’s Phone Number

Previous Business Address

LIST ALL DEBTS. Attach other sheets if necessary.
Debts

Ages

Start Date

Title/Rank/Grade

Start Date/End Date

NOTE: Alimony, child support, or separate maintenance income need not be revealed if you do not choose to have it considered.

Owed to

Address

Account No.

Present Balance

Monthly Payments

Amount Past Due

Mortgage or Rent
Second Mortgage
Auto Loan
Credit Card
Credit Card
Child Support,
Alimony or
Maintenance
Other

LIST ALL ASSETS. List all items you own free and clear on another sheet if necessary.
Home ❑ Own ❑ Rent

Years there

Estimated Market Value $

Other/Describe

Market Value $

Are you the comaker of any other loans? ❑ Yes ❑ No
Have you ever filed for bankruptcy? ❑ Yes ❑ No

Auto License(s)

Make of Auto
1
Market Value $

Other/Describe
How much?

Year

Make of Auto

Year

2
Other/Describe

Market Value $

For whom?

Are you a U.S. citizen? ❑ Yes ❑ No

Have you any legal proceedings against you? ❑ Yes ❑ No

FINANCIAL REFERENCES
Share Draft or Checking Account Number / Amount

Name and address of depository

Phone

Savings Account Number / Amount

Name and address of depository

Phone

PERSONAL REFERENCES
Name and address of nearest relative not living with you

Relationship

Name and address of a personal friend (not a relative)

Phone
Phone

The credit union is relying on what you stated in this application, and you acknowledge that everything you have stated is true and correct and that you have provided a COMPLETE listing of all your debts and
obligations. You authorize the Credit Union to obtain credit reports in connection with this application for credit and for any update, increase, renewal, extension, or collection of the credit received. You understand that
the Credit Union will rely on the information in this application and your credit report to make its decision. If you request, the Credit Union will tell you the name and address of any credit bureau from which it received
a credit report on you.
By signing below, you acknowledge receipt of and agree to the terms of the Visa Credit Card Agreement that was attached to this application when you received it. Detach the Visa Credit Card Agreement and retain it
for your records.
Applicant Signature

Date

X

CREDIT UNION USE ONLY

Co-Applicant Signature

Date

X

❑ Approved

❑ Rejected

Credit Limit $ _____________________

Visa Account Number _____________________

Conditions/Comments _____________________________________________________________________________________________________

Member Credit Union Account Number ___________________

Loan Officer ____________________________

DETACH AND RETURN THIS APPLICATION TO NORSTATE FEDERAL CREDIT UNION

Date _________________

INTEREST RATES AND INTEREST CHARGES
Annual Percentage Rate
(APR) for purchases

Credit Score
Annual
Percentage
Rate

A

B

C

D

10.9% 11.9% 12.9% 15.9%

We will tell you in writing which rate applies upon approval of your application. Rate based on credit score.

APR for Balance Transfers

The same Annual Percentage Rate listed for purchases above.

APR for Cash Advances

The same Annual Percentage Rate listed for purchases above.

Penalty APR and When It Applies

18.00% This APR may be applied to your account if you:
1) Make a late payment;
2) Go over your credit limit;
3) Make a payment that is returned; or
4) Do any of the above on another account that you have with us.
How Long Will the Penalty APR Apply? If your APR is increased for
any of these reasons, the Penalty APR will apply until (you make 6
consecutive minimum payments when due)

How to Avoid Paying
Interest on Purchases

Your due date is 25 days after the close of each billing cycle. We will
not charge interest on purchases if you pay your entire balance by the
due date each month.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.50.

For Credit Card Tips from
the Federal Reserve Board

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Federal Reserve Board at
http://www.federalreserve.gov/creditcard.

FEES
· Annual Fee

Transaction Fees
· Balance Transfer
· Cash Advance
· Foreign Transaction Fees

None

None
None
1% for currency conversion. 0.8% for non-currency conversion.
$1.25 ATM cash disbursement fee at surcharge-free ATMs
$0.50 ATM cash disbursement fee at surcharge ATMs
Please refer to Section 12, Foreign Transactions for more information.

Penalty Fees
· Late Payment
· Over-the-Credit Limit
· Returned Payment

$20
$10
$25

How We Will Calculate Your Balance: We use a method called “average daily balance (excluding new purchases).”
The information about the cost of the card described on this application was printed on January 11, 2012 and was accurate as of that date, but is subject to change
after that date.
You should call the credit union at 207-728-7555 or write to: NorState Federal Credit Union, 78 Fox Street, Madawaska, ME 04756 for any changes in the information
about the cost of the card since the time of printing.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.

